                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




                 Report of Inspection

      Review of the

   Voice of America’s

Digital Upgrade Program



Report Number ISP-IB-05-65, August 2005




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED

                                            UNCLASSIFIED




                            TABLE OF CONTENTS

SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . .3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

FINDINGS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Digital Program Implementation.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Remaining Work Under Digital Upgrade Program . . . . . . . . . . . . . . . . . . . 20

ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

     A. VOA Digital Upgrade Program: Project Information . . . . . . . . . . . . . .25

     B. Listing of VOA Language Service Polled/Responding to

     OIG IDAPS Survey.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29





                                                 UNCLASSIFIED

                                       UNCLASSIFIED





                                       SUMMARY

     For more than a decade, beginning under the former U.S. Information Agency
(USIA), U.S. international broadcasting has been involved in a comprehensive effort
to modernize its broadcast operations through the use of audio, video, and com-
puter technologies. In large part, the conversion of the Voice of America (VOA)
operations from analog to digital technology has been the focus of this undertaking.
Essentially, VOA radio is now a digital organization; however, work continues on
full digitalization of television operations. The Office of Inspector General (OIG)
completed a review of the VOA digital upgrade effort. The objectives of the
review were to assess the effectiveness of project implementation to date and to
identify what work remained to be done.

     Generally, the digital upgrade program was not one single project but a
multiyear, multiproject undertaking to upgrade international broadcasting opera-
tions from analog to digital technology. The latest IBB budget estimate placed the
overall cost of the program at about $62 million. Although the upgrade was not
fully completed, OIG found that much had been accomplished since the start of
the program. As the primary focus of the program, VOA’s transformation to a
digital organization goes a long way towards supporting a key Broadcasting Board
of Governors (BBG) strategic objective: to accelerate multimedia development
through the convergence of traditional broadcasting and telecommunications
technologies. At the start of the OIG review, most of the major digital projects
under the overall program were completed. As a result, OIG primarily focused its
work on the last remaining major initiative, the Integrated Digital Audio Production
System (IDAPS), described by the International Broadcasting Bureau (IBB) as the
capstone of the digital broadcast program.

    Building on the foundation set by earlier digital upgrade projects, the deploy-
ment of IDAPS brought commercial radio broadcasting technology standards to
VOA. Given the unprecedented scale of the VOA project, some problems were to
be expected. OIG found that project planning and execution issues slowed the
completion of IDAPS, including such things as (1) the identification of system
requirements and changes in project management, (2) delays in delivery of Govern-
ment Furnished Equipment (GFE), (3) IDAPS software “bugs,” (4) indecision on
the issue of IDAPS technical support, and (5) additional contract work. Notwith-



OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   1 .

                                       UNCLASSIFIED
                                   UNCLASSIFIED




      standing, OIG found that IDAPS was in place and the VOA language services were
      using the new digital audio system in program production and broadcasting.

          IDAPS has exceeded the original five-year term of the contract and, as of
      October 2004, project expenditures of about $18 million were about $1million
      more than the budgeted amount. IBB expects to complete the remaining IDAPS
      work, involving VOA’s central recording facility, and to closeout the contract
      before the end of FY 2005. Although originally part of the overall digital upgrade
      program, the digitalization of VOA Television was proceeding as a separate initia-
      tive to install a news management system based on digital video.

          The report includes one recommendation to IBB to ensure that the newly
      created IDAPS support office develops a comprehensive system to track more
      effectively IDAPS operations and to manage better the overall network.

          OIG provided a draft of this report to BBG and IBB for review and comment.
      The BBG response concurs with the recommendation and provides details on
      current systems, and planned improvements in these systems, to monitor the
      performance of the digital network and to manage IDAPS-related user problems.




2 .          OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                   UNCLASSIFIED
                                       UNCLASSIFIED





                 OBJECTIVES, SCOPE, AND
                     METHODOLOGY


   The purpose of the review was to evaluate IBB’s ongoing VOA digital upgrade
program, with particular emphasis on how the project was being implemented and
what more needed to be done. Work on the review was carried out in Washington,
DC, at BBG headquarters. OIG conducted interviews with management and staff
of BBG, IBB, and VOA. IBB offices involved in OIG interviews included the
Office of the Director, Office of Engineering, Office of Computing Services, and
Office of Contracts. VOA offices included the Office of the Director, Office of
Broadcasting Operations, and offices of the directors of selected language services.
Also, OIG collected and reviewed pertinent documents related to project manage-
ment, procurement, funding, technical operations, and support of the overall digital
program.

    As noted, OIG focused its work on the IDAPS installation. To assess the
implementation of this initiative, OIG interviewed IBB and contractor officials
involved in the management, execution, and oversight of the digital upgrade
program; compiled and analyzed pertinent project documents; and collected and
analyzed information from the various audio system logs maintained by the Com-
puting Services Office and VOA’s Broadcast Operations Office. OIG also con-
ducted a survey of the VOA language services to assess the IDAPS training re-
ceived by service personnel and the use of the digital system in producing and
broadcasting programs. To avoid disrupting the broadcasters’ work, OIG asked the
directors of the VOA language services to respond to the survey and left it to them
to decide whether to seek input from their service personnel before completing the
survey. Of the 52 VOA language services surveyed, 54 percent responded. Com-
pleted surveys covered about 500 VOA broadcasters and producers.

    The OIG Office of International Broadcasting Oversight conducted survey
work on this project between July and September 2003. Subsequent audit work
was carried out between December 2003 and March 2004. In September and
October 2004, IBB updated some information at OIG’s request. All work was
conducted in accordance with quality standards for inspections prescribed by the
President’s Council on Integrity and Efficiency. The former Office of International
Broadcasting Oversight carried out this review. Contributors to this effort were
Louis A. McCall, John M. Trembler, Darlene Allison, Peter Larson, and Sean Bailey.


OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   3 .

                                       UNCLASSIFIED
                            UNCLASSIFIED





4 .   OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                            UNCLASSIFIED
                                       UNCLASSIFIED





                                 BACKGROUND

     In the early 1990s, USIA international broadcasting faced the prospect of
replacing its aging computer system and the broadcast production equipment,
which relied heavily on analog technology. The existing agency-wide computing
infrastructure and the broadcasting analog audio and video production systems
were becoming obsolete or inadequate to meet requirements. By a memorandum
dated February 4, 1994, the USIA Acting Associate Director for Broadcasting
formally launched the Digital Technology Project to convert Bureau of Broadcast-
ing (IBB’s predecessor) operations from analog to digital technology to maintain an
efficient broadcasting capability within the bureau. With enactment of the Interna-
tional Broadcasting Act of 19941 and the establishment of BBG, responsibility for
the digital upgrade program passed from USIA’s Bureau of Broadcasting to IBB.
The Office of Engineering, which became a part of the newly established IBB
organization, remained the primary project management office throughout the
digital program.

     Initially, the Digital Technology Project included only the digital conversion of
broadcast operations. However, in August 1994, the Acting Associate Director for
Broadcasting approved the merging of the Digital Technology Project with the
project to replace the agency’s aging System for News and Programming (SNAP),
which from the mid-1980s was used for text processing in program production,
electronic mail, and other computing systems throughout the broadcasting bureau.
Merging the two initiatives, or what IBB has described as the “one-box” approach,
was viewed as a way to reduce equipment and operational costs and operational
complexity. Over the next several years, digital planning proceeded under the
“one-box” approach with various in-house technical teams and outside consultants
preparing various project plans, cost analyses, proposals, and decision memoranda
to arrive at a comprehensive, integrated approach to digitize the agency’s adminis-
trative and broadcasting operations.

    In FY 1996, at the start of major procurement, IBB planners estimated the total
digital program budget at about $52 million. The digital conversion was planned as
a multiyear program comprised of a number of major projects, including a new


1
    PL 103-236, Title III



OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   5 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED




      VOA Master Control facility; replacement of the SNAP system; and a new, digital
      audio-production system. The former two projects laid the foundation for the
      change over in the VOA audio production system from analog to digital techno-
      logy. The table below provides a breakdown of overall digital project funding as of
      October 2004. Additional details on each of the projects listed are included in
      Appendix A.
                                     Digital Broadcasting Program
                                              (000 Omitted)

         Project                 Total Budget           Expenditures                   Status
                                                      (As of 10/12/04)
      SNAP Replacement              $16,174                 $16,174           Completed in FY 1999;
                                                                               last expenditure FY 2000
      VOA Master Control            $10,407                 $11,223           In service 1999; ongoing
      Management                                                              system integration with
                                                                              IDAPS
      IDAPS                         $17,000                 $18,045           Deployment to VOA
                                                                              completed 12/2001;
                                                                             Task 7 (Central Record-
                                                                              ing) ongoing
      Radio Studio                   $6,538                 $2,378           Mix/Dub studios in-
      Equipment                                                               stalled; digital equipment
                                                                             installed in most core/
                                                                             production studios;
                                                                             FY2006 funds requested
                                                                             for studio renovations
      Television Video              $10,215                  $9,284           Purchase of digital video
      Equipment                                                               file server system post-
                                                                              poned to FY 2005
      Miscellaneous Project         $1,270                  $1,214            Last expenditure FY
      Expenses                                                                2004
      Total                         $61,604                 $58,318

      Source: IBB, October 2004




6 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED





                                       FINDINGS



DIGITAL PROGRAM IMPLEMENTATION
    Implementation of the digital broadcasting program has been phased in over
many years. Prior OIG work identified some contractual problems concerning
projects under the overall upgrade program. When OIG initiated its current review,
IDAPS was the only major digital project still ongoing. Therefore, OIG mainly
focused on how well it was being implemented and possible obstacles that might
delay completion. Generally, OIG found that IDAPS was successful in bringing
commercial radio broadcasting technology standards to VOA. However, project
planning and execution issues contributed to delays in IDAPS implementation.
Although IDAPS was in place and being used for VOA program production, at the
start of the review, many of the broadcasters were not fully trained to use the new
technology for on-air programming. A longstanding, unresolved issue concerning
organizational support of IDAPS also seemed to limit wider use of the new, digital
audio system. OIG also found that IBB was not systematically compiling IDAPS
performance data to evaluate how well the system was operating. Nevertheless, an
OIG survey of the VOA language services resulted in mostly favorable responses
regarding the training received on IDAPS and its use in daily radio programming.
At the end of FY 2004, IBB reported that all the VOA services had completed the
IDAPS on-air training, and the bureau had a plan in place to resolve the question of
IDAPS support.

Prior Office of Inspector General Reviews of the
Digital Upgrade Program

    In the past, OIG reported contracting deficiencies involving two projects under
the digital broadcasting program. In a 2003 review, OIG evaluated BBG systems
and procedures in place to monitor contractor performance in selected contracts,2
including the IDAPS contract. In general, OIG found that BBG personnel were
adhering to applicable policies and procedures in monitoring these contracts.

2
 OIG report, Review of Monitoring of Contractor Performance at the BBG (AUD/PPA-03-21,
March 2003).


OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   7 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




      However, concerning the IDAPS contract, OIG found that project staff approved
      payment for a few invoices without the required formal contract modifications or
      funds certification, which in one case resulted in an unauthorized commitment.
      OIG recommended that IBB issue new guidance to personnel with contract moni-
      toring responsibilities to avoid similar problems in future contracts.

          In a September 1998 report, OIG reviewed allegations of restricted competi-
      tion at USIA in procuring the VOA Master Control facility, a subelement of the
      overall digital broadcasting project.3 OIG found that USIA conducted the master
      control facility’s procurement in a manner that hindered competition by including
      functional requirements in the Request For Proposal (RFP) that excluded most
      manufacturers. USIA’s Office of Contracts also improperly used an existing archi-
      tecture and engineering contract with one vendor to procure another vendor’s
      assistance in the conversion to digital broadcasting operations. As a consequence,
      the report concludes, government costs were unduly increased. Although OIG
      found no basis to recommend termination of the contract for upgrading the VOA
      master control facility, OIG recommended a number of actions to strengthen
      contacting policies, procedures, and practices concerning future contacts.

      Assessment of Ongoing Integrated Digital Audio
      Production System Implementation

          Digital audio was becoming the industry standard when IDAPS planning began
      in the mid-1990s. IBB was faced with the task of installing a state-of-the-art digital
      audio system for VOA on a scale never accomplished before by other broadcasters.
      Despite the magnitude of the task, OIG found that IDAPS was operational and
      being used by VOA language services in daily production and broadcasting. Over
      the life of the project, OIG found that both technical and nontechnical issues
      slowed the completion of the project. To assess IDAPS implementation, OIG
      focused on aspects of project planning and execution, the technical performance of
      the newly installed system, and the system performance from the VOA user ser-
      vices perspective.




      3
       Review of Allegations of Restricted Competition on the United States Information Agency’s
      Master Control Facility Contract (USIA-98-PP-021, September 1998).



8 .            OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED



    Integrated Digital Audio Production System
    Planning and Execution

    OIG found that, from the outset, IDAPS implementation was delayed by a
combination of factors involving early requirements planning and management,
contract execution, system operational support, and contract modifications. Plan-
ning for IDAPS was carried out with other projects under the umbrella of the
Digital Technology Project.

     Early estimates called for award of an IDAPS contract by mid-1996. However,
early in the project uncertainties about system requirements and changes in project
management contributed to delays in the procurement process. IBB released its
first RFP for IDAPS in February 1997. However, IBB project documents report
that industry comments on the RFP raised concerns about the proposed IDAPS
computer operating system, necessitating a change in project requirements. Diffi-
culties encountered in redefining IDAPS requirements held up award of the con-
tract. Contributing to the delay in IDAPS procurement was the fact that IBB and
VOA staff were unavailable to work on the project because of commitments to
other ongoing digital projects. In addition, according to project documents and IBB
officials, in May 1997 the IBB director transferred management of the digital
program from the IBB Office of Engineering to the IBB director’s office and named
a new digital project manager. IBB project management officials estimated that this
delayed the digital upgrade project by as much as two years. With the change, there
also was a reassessment of the project’s scope. Project data indicate that all these
factors together kept IBB from meeting its FY 1998 target award date for the
IDAPS contract. In April 1999, IBB released the second RFP and awarded the
IDAPS contract to Dalet Digital Media Systems (Dalet) in September 1999.

    In general, the Dalet contract called for the installation of a digital system that
met commercial radio broadcasting standards and could be adapted as necessary to
the particular needs of VOA. Under the contract, Dalet was to provide IDAPS
software, professional audio interface cards, computing hardware specifications,
system integration, installation, training, and user support services. The initial
award of $3.2 million covered the base contract and the first three tasks. The
contract includes other optional fixed-price tasks whose prices were to be deter-
mined at a later date, if approved. Over the life of the contract, which was not to
exceed five years, a total of eight tasks were awarded, with one (Task 7) projected
to be completed in August 2005.




OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   9 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



               Integrated Digital Audio Production System
               Contract Execution

           Although, the IDAPS project was unique in terms of its size, IBB information
       shows that project execution was carried out with only a few major delays. Project
       officials and IDAPS status reports place responsibility for these delays on both
       contractual parties: the contractor and the government. In large part, OIG’s assess-
       ment of project execution was based on information gleaned from IBB Office of
       Engineering progress reports detailing the status of the ongoing IDAPS project.
       These weekly reports, covering calendar years 1999-2003, document the history of
       the project, including both technical and non-technical problems encountered and
       the actions taken to resolve these problems. Key contract delays involved deliver-
       ies of Government Furnished Equipment (GFE), IDAPS software problems, and
       system technical support.

            Soon after work began on the Dalet contract in October 1999, IBB project
       information shows that IDAPS met with problems concerning GFE requirements.
       Project officials found that a significant portion of GFE was not on the GSA
       Schedule, particularly a number of file servers for the early contract tasks. Al-
       though orders were placed with the anticipation of quick delivery, the first set of
       GFE file servers did not begin to arrive at the contractor’s test facility until the end
       of November 1999. However, problems continued and it was not until the begin-
       ning of February 2000 that all of the file servers arrived at the contractor’s facility.
       According to project status reports, the delays, which were caused by the file server
       vendor, stretched over about 3.5 months and impacted Task 1 and possibly Tasks 2
       and 3 of the contract. Although the vendor pledged to do better on future deliver-
       ies, it had problems making timely delivery of additional file servers for Task 3 of
       the contract, which resulted in a delay of about 2.5 months, from the end of June
       until mid-September 2000.

           With resolution of the GFE problem, IDAPS project reports show that work
       moved forward on deployment of the new Dalet system. By the end of October
       2000, two of the more than 50 VOA language services began using the new system
       in a limited capacity and were expected to go on-air with the new technology by the
       end of the year. However, in early January 2001, the project reports document
       technical problems with the version of the Dalet software (5.1.c) initially installed.
       Because of “bugs” in the software, it was decided not to go on-air using the Dalet
       system until the problems were resolved. At the same time, quality control testing
       was underway on the next version of the Dalet software (5.1.d), which was ex-
       pected to correct some earlier problems. Although early testing of the 5.1.d version
       showed improvement over the initial version, some bugs were identified and testing


10 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED



continued. To facilitate a solution, IBB project managers withheld payment of
contractor invoices for three months. By the end of May 2001, all testing on 5.1.d
was completed, IBB project management approved the new version, and the
software was distributed to users. Also, during July 2001, in support of the IDAPS
migration, IBB began deployment of new, upgraded personal computers, the
platform for running the Dalet software.

    As installation of the Dalet system moved ahead, staffing and training issues
began to impede progress of the project, particularly with regard to the use of the
Dalet system for on-air programming. The need for developing an in-house techni-
cal support structure for IDAPS was identified early; however, actions to resolve
the support issue fell short. By December 2000, the first VOA divisions (VOA
News and English) were ready to go on the air using IDAPS but the move was
postponed largely because of the unresolved issue of operational support of the
system. By the end of August 2001, several weeks of completed air shows were
cancelled because of VOA training and technical support staff shortages. The hold
on air shows continued into 2002 as VOA took steps to address staff shortages. In
mid-November 2002, more than 22 months after reported readiness, the first VOA
program (News Now) became a fully digital. Beginning in January 2003, as the
training continued, other VOA services were able to go on the air using the Dalet
system. VOA continued the on-air training through early August 2004, training
two or three services per month, until all VOA users were trained. Similarly, the
issue of IDAPS technical support was addressed in connection with the March
2004 IBB reorganization of Information Technology (IT) functions. Additional
details on this longstanding support issue are provided in the next section.

     Notwithstanding the problems encountered during the installation of IDAPS,
project management and contractor officials seemed to be able to work coopera-
tively to resolve issues without serious consequences. The IBB contracting officer
for IDAPS told OIG that the contractor effectively provided all technical
deliverables under the contract, IBB made no penalty claims against the Dalet
contractor, and the contractor filed no claims against IBB. An IBB project official
with technical oversight of the contract said that, throughout the project, the
contractor was very agreeable to making changes to accommodate IBB and VOA.
Likewise, another IBB project management official said that although both the
contractor and the government made mistakes, the contractor filed no formal
claims.




OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   11 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



          Integrated Digital Audio Production System Support

           From the start of the OIG review, the unresolved issue of IDAPS operational
       support was a particular concern to BBG broadcasting officials. As noted, the issue
       adversely affected deployment of the Dalet system. In general, the issue of IDAPS
       support grew out of IBB’s migration to digital technology. With IDAPS and the
       “one-box” approach adopted for the IBB digital program, digital audio and com-
       puter data were required to share the same network path, file servers, databases,
       and overall computing infrastructure. The merging of these two technologies made
       it necessary for Broadcast Operations and Computing Services to work together in
       supporting the system.

           A shared approach to IDAPS support between Broadcast Operations and
       Computing Services could not be worked out. In July 2003, the two offices pre-
       pared a transition plan concerning administration and support of IDAPS; however,
       IBB and VOA management did not approve the collaborative effort. Some IBB
       and VOA officials attributed some of the indecision on the support issue to the
       organizational configuration of IBB. In particular, the two support offices, Broad-
       cast Operations and Computing Services, reported to different management heads:
       the former to the VOA Director and the latter to the Associate Director for Man-
       agement. Although the acting IBB Director could have resolved the IDAPS sup-
       port issue, he told OIG he was not in a position to make a unilateral decision on
       the support issue. Instead, he preferred that the two offices involved, including the
       office directors, come to mutual agreement on the matter. The two offices were
       not able to come to agreement.

           Without a resolution of the support issue, IDAPS deployment was adversely
       effected, particularly in areas such as user training, discussed earlier, and Dalet
       system improvements. Regarding system improvements, OIG was informed that
       the support issue was delaying a necessary Dalet upgrade. According to the
       contractor’s on-site representative, the Dalet version being used by VOA (5.1.d)
       was older technology and that the next version (5.1e), when installed, would
       correct some of the small system problems of the current version. VOA and
       Computing Services officials agreed that the Dalet system should be upgraded;
       however, there seemed to be confusion as to which of the two offices had the
       responsibility for this. Although the upgraded version had been successfully tested,
       VOA systems administrator officials said that the issue with moving forward on
       upgrading IDAPS was not a funding issue but arose from the lack of staff and from
       indecision on whether VOA or Computing Services should provide Dalet system
       support.



12 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED



    In September 2003, IBB management initiated action to address the unresolved
issue of IDAPS support as part of a comprehensive review of its IT functions. IBB
contracted for a consultant study to in part “perform a critical examination of IT
organizational and management arrangements within IBB.” In January 2004, with
the results of the consultant study in hand, the IBB Director sought BBG approval
to create a central technology organization within IBB to address issues raised in
the study as well as in a recent OIG report.4 The Director also sought approval to
align the organization with industry standards noting the IT management structure
was fragmented and key functions were not being addressed. For example, the IBB
director cited the “delayed implementation of digitization for as much as two
years.” With BBG and congressional approval, the IT reorganization was effective
May 30, 2004.

    The IT reorganization specifically addressed the issue of IDAPS support.
Under the approved IBB plan, Computing Services and some Broadcast Operations
technical staff were to be merged into a newly created organizational entity, under
the authority of BBG’s Chief Technology Officer, which would be responsible for
IDAPS support. With the centralization of IDAPS support, OIG believes that the
longstanding issue of establishing an effective IDAPS support system should be
resolved; however, it was too early to assess fully the outcome of IBB’s action at
the conclusion of OIG’s review. Nevertheless, in September 2004, according to
the IDAPS project manager, the newly formed IDAPS support team of Computing
Services and VOA Broadcast Operations staff under the Office of Engineering
was making good progress in addressing some of the system work that had been on
hold for the past few years. For example, in January 2005, IBB announced imple-
mentation of the upgrade of the Dalet system to the 5.1.e version. Given the
actions by IBB, OIG is not making a recommendation regarding the support issue.

    Integrated Digital Audio Production System
    contract modifications

    The magnitude of additional work performed under the IDAPS contract, some
unplanned, appeared to be a factor in extending the contract completion date. As
noted, the original September 1999 $3.2 million award to Dalet covers the costs
associated with the base contract and three tasks. The contract also includes 11
optional firm-fixed price items, subject to the approval of the contracting officer.
As of October 1, 2004, IBB had awarded 44 modifications to the original contract


4
 Review of the Information Security Program at Broadcasting Board of Governors (IT-A-03-14,
September 2003).


OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   13 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED




       for eight separate tasks, increasing the total contract cost to slightly over $14
       million. One task (Task 7) was ongoing, with estimated completion in August
       2005. The term of the contract, including Tasks 1, 2, and 3 and options, was not
       to exceed five years, which made the end-date September 19, 2004. IBB closeout
       of the IDAPS contract is dependent on the completion of Task 7; however, it is
       expected to be before the end of FY 2005. This would put contract completion
       about a year beyond the term of the original contract.

            The optional provisions in the IDAPS contract support IBB’s anticipated need
       for additional work beyond the level of effort required under the initial awarded
       contract. However, the contract does not specifically mention work concerning a
       digital production and broadcast system for the Middle East Radio Network
       (MERN), which became IDAPS Task 8. Work required for MERN was not identi-
       fied for more than a year after award of the IDAPS contract. The contract calls for
       the modernization of existing facilities at VOA Headquarters and three VOA news
       centers in New York, London, and Hong Kong. The MERN project involved new
       facilities in Dubai, United Arab Emirates, rather than existing facilities.

           IBB contracting information shows that the IDAPS Task 8 modifications were
       awarded over a 32-month period. In August 2001, the IDAPS contractor prepared
       an initial proposal for the MERN task. At the direction of IBB, the contractor
       amended the proposal to provide a Prototype Overseas News Center System
       (PONS). On September 27, 2001, IBB approved IDAPS Modification 11 for
       PONS, which became the formal approval of Task 8. Subsequent Task 8 modifica-
       tions, described as being for MERN, called for the design, procurement, and con-
       struction of studio and broadcast hardware and on-site overseas installation. The
       project was deployed overseas as the MERN Middle East Program Center (MEPC),
       which became operational in July 2003. IBB awarded the final Task 8 modification
       on June 4, 2004. As of October 1, 2004, IBB had awarded 19 Task 8 modifica-
       tions at a cost of about $3 million, which represents about 20 percent of total
       contract costs.

            Initially, OIG questioned the IBB approach of carrying out the MERN project
       as a modification to the IDAPS contract rather than as a new procurement. On the
       surface, Task 8 appeared to be outside the original IDAPS contract’s scope of
       work. First, the IDAPS contract was for the modernization of existing VOA
       facilities. Initially, BBG told OIG that MERN was not part of VOA. MERN also
       was not an existing but a new facility. Second, in general, the original IDAPS
       contract calls for the contractor to provide software and hardware specifically




14 .          OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED




designed and intended for a digital audio-production system. However, under Task
8, the contract was modified to provide for the design-build of a digital news
center. This required some construction to accommodate the new digital system
for the MEPC, which eventually was installed in an IBB-leased facility in Dubai.

    In January 2005, responding to OIG concerns, BBG’s Acting General Counsel
pointed out that when Task 8 was approved MERN was still a pilot project under
VOA. On the question of IDAPS applying only to existing VOA facilities, counsel
noted that the original contract clearly notified all interested offerors that some
directly related equipment and services not set forth in the contract may be in-
cluded in future task descriptions as optional work. The contract also calls for all
systems delivered under the contract, regardless of delivery date, to function as
integrated whole. Furthermore, the work performed under the Task 8 modifica-
tions did not involve construction, but rather the design and production of a digital
audio broadcast system for a prototype overseas news center system and the
installation of that system at the MEPC.

    OIG’s review of the BBG January 2005 legal opinion concluded that the
agency’s position concerning its actions related to the MERN Task 8 modifications
performed under the IDAPS contract complied with government procurement laws
and regulations. Nevertheless, OIG believes that BBG contracting officials, in the
future, need to avoid broadly written scopes of work that may have the effect of
limiting competition.

    Integrated Digital Audio Production System
    Technical Performance

    OIG attempted to evaluate IDAPS implementation based on how well the
newly installed Dalet system was performing. Both VOA Broadcast Operations
and Computing Services were maintaining system logs on IDAPS problems re-
ported by the users. Generally, OIG found that the logs lacked sufficient data to
identify specific causes of user problems. As a result, OIG was unable to use the
logs as a measure of how well Dalet had been operating. OIG believes a single
logging system that captures detailed information on the root causes of user
problems would provide key information to assess performance of the Dalet
system and over time provide trend data to manage better the operation and main-
tenance of IDAPS.

    OIG found that three separate offices were compiling IDAPS operation/
incident logs; however, none had been designated as the one “official” operating
log for IDAPS. Within the Office of Broadcast Operations, the Digital Support


OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   15 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



       Division logs primarily recorded information on off-air IDAPS problems experi-
       enced by the VOA broadcasters during program production. Another office within
       Broadcast Operations, the Operations Support Division, was compiling informa-
       tion on audio system problems that occurred in the studios during VOA broadcasts.
       A third set of IDAPS operational logs that covered only off-air incidents, was being
       maintained by IBB’s Office of Computing Services. According to a Computing
       Services’ official responsible for user services, none of the logs was considered to
       be the “official” IDAPS record documenting the history of Dalet problems because,
       in his opinion, there was no central authority designated to manage IDAPS.

           The information contained in the various logs was not adequate to assess Dalet
       performance. A selective review of the logs and discussions with Broadcasting
       Operations and Computing Services officials indicated that the log information was
       insufficiently detailed to isolate problems related to the Dalet application. Al-
       though the technicians may have recorded an incident as a “Dalet system freeze,”
       VOA and IBB officials pointed out that the actual cause of the problem might not
       be the Dalet software but some other aspect of the network, given that other non-
       Dalet applications operate on the same network. In this regard, in early 2003, the
       Dalet contractor pointed out that “freezing machines” is a type of symptom whose
       cause is always difficult to find and could be related to, among other things, net-
       work loss of connectivity, defective equipment, or the use of screen-savers, power
       management features, and anti-virus scans. The contractor suggested that all
       incidents be reported in detail to identify patterns that could provide clues to their
       cause and solution. However, OIG found that the logs were still showing incidents
       as “Dalet freezes.”

            Besides the lack of detailed incident reporting in the logs, a Computing Ser-
       vices official involved with user services said there could be duplication between
       his office’s logs and those of the VOA Digital Support Division because they both
       deal with off-air problems. For example, one of his technicians may respond to a
       call for assistance and then find it is not a Computing Services problem but a VOA
       support problem. If a VOA technician is then called, the incident could be errone-
       ously reported on the logs of both offices. He added that there was unevenness in
       how some technicians responding to IDAPS problems were documenting the
       problems and he was trying to improve in this area.

           Both VOA and Computing Services officials commented that the established
       logging systems for IDAPS were not being used systemically as a diagnostic tool or
       to track system operating trends. In general, they added that the logs provided
       information if senior management had a question about a problem in a studio or as
       a tool to track the progression of new employees. Although such uses of this


16 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED




information may have some merit, OIG believes that the IBB is missing an oppor-
tunity to develop a logging system that can be used to manage and evaluate the
performance of IDAPS. When properly designed and maintained, such a system
could provide essential information for managing the operation and maintenance of
the system. Furthermore, maintaining three separate logging systems results in
duplication of effort and a waste of scarce resources. As noted earlier, IBB has
centralized support of IDAPS under a single office. As a result, OIG believes that
IBB should task this new office with developing a single, comprehensive system to
track more effectively IDAPS operations and to manage better the overall system.



   Recommendation 1: The International Broadcasting Bureau should ensure
   that the newly created Integrated Digital Audio Production System support
   office develops and maintains a single logging system capable of collecting
   and documenting detailed performance data that would provide valuable in-
   formation for the efficient operation of the digital system and making deci-
   sions on future upgrades of the system. (Action: IBB)


    BBG concurs with the recommendation and advises OIG that IBB’s Office of
Engineering and Technical Services now has multiple systems in place both to
monitor the performance of the digital network, as well as, to manage and track
IDAPS-related user problems, complaints, and bug reporting. Over the next six
months, IBB plans to consolidate the systems in each category so that there would
be a single monitoring system for each area, i.e., network performance and IDAPS
user support.

    Survey of Integrated Digital Audio Production
    System Users

    Finally, to assess IDAPS implementation, OIG sought the views of the custom-
ers the digital system was created to benefit: the VOA language services. In Janu-
ary 2004, OIG asked the language services to provided information about their
experiences with IDAPS, including the training received and the use of the new
digital Dalet system. With an overall response rate of more than 50 percent, the
respondents gave a very positive rating to the contractor’s training program and to
their experiences in using the system. Responses also were very favorable concern-
ing the on-air Dalet training being conducted by VOA. However, more than 40
percent of the respondents reported that their services had not yet completed the
on-air training program. As noted earlier, VOA’s on-air training program was not
completed until August 2004.

OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   17 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED



           The OIG survey was conducted between January and February 2004. It
       included 16 questions, grouped into three categories: the training provided by the
       Dalet contractor, VOA’s on-air Dalet training, and the experiences of the language
       services with the new Dalet system. The survey was sent to 52 VOA language
       services. To minimize any possible burden in responding to the request, OIG asked
       the heads of the services to complete the survey on behalf of their broadcasters
       and producers. Service heads were given the option to poll their employees before
       responding to the survey. The overall response rate to the survey was about 54
       percent (28 responses). Total responses covered almost 500 VOA broadcasters and
       producers; however, there was not always a clear distinction between the two
       groups. A few services reported that some employees did both broadcasting and
       producing. Appendix B lists the VOA services that responded to the OIG survey.

          User Training by Contractor

           The IDAPS Dalet contract required the contractor to provide a comprehensive,
       on-site training program for various groups within IBB and VOA, including broad-
       casting personnel. The training for the VOA broadcasters, a mix of lecture and
       hands-on use, was to enable them to use IDAPS successfully in their routine, daily
       production of broadcast program and program elements in their work areas. The
       contractor training was designated as “platform” training. Part one of OIG’s
       survey requested the VOA services to provide information on their experiences
       with the Dalet platform training.

           Overall, VOA respondents gave the contractor’s platform training largely
       positive ratings. With few exceptions, all reported that between 76 and 100 percent
       of their users completed the contractor’s training program. Results of the survey
       show that only about 20 percent of the users had had prior digital training or
       experience. More than 90 percent of the responding services reported the quality
       of the contractor training as “adequate” or “very adequate.” Also, they added that
       about 85 percent of the broadcasters and producers were confident in their ability
       to use IDAPS. However, the survey shows that about 30 percent of the two
       groups are likely to need additional digital platform training or coaching.

          On-air Digital Training by Voice of America


           Part two of the OIG survey aimed at identifying the extent of the language
       services on-air Dalet training and the quality and degree of difficulty of this train-
       ing. In contrast to the contractor-provided IDAPS platform training, training for
       the on-air use of the Dalet system was the responsibility of VOA’s Office of

18 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED




Broadcast Operations. The training, which helped the languages services transition
to on-air use of the Dalet system, was carried out over a period of about 21
months, beginning in November 2002. VOA’s training office also conducted
remedial training for all services, new employees, and contractors and interns, as
well as specialized training programs.

    For those VOA services responding to OIG’s survey, 16 of 28 reported that
they had completed the on-air Dalet training program conducted by VOA. All
those that completed the training rated the quality for both broadcasters and
producers as “adequate” to “very adequate.” Similarly, the respondents reported
that almost 95 percent of the two groups found the on-air training to be “easy” or
“very easy” to learn.

    User Experience with Dalet System

      The final section of the OIG survey dealt with the experiences of the VOA
language services in using the new Dalet technology in the production and on-air
broadcasting of programs. Generally, the respondents gave uniformly positive
ratings concerning their service’s experience with the Dalet digital technology. The
services reported that the trained broadcasters and producers were using the new
digital technology about equally for program production (79 percent) and on-air
broadcasting (83 percent). In terms of ease of use, respondents said the new Dalet
technology made it easier to produce programs (89 percent), rather than broadcast
programs on-air (61 percent). However, the survey indicates that more than 80
percent of the two user groups believe that the new digital technology speeds
program production and improves the overall quality of programs. Notwithstand-
ing the positive survey results, some language services reported that they were still
using the older analog technology in their work. Respondents reported that about
27 percent of broadcasters and producers were relying on analog technology for
some programming activities. This seemed to support what some IBB officials said
during the review; that is, services would have a continuing need for analog tech-
nology because of the large collection of VOA archival material that is analog and
still being used in current VOA programming.

    The final survey question was intended to measure the level of IDAPS techni-
cal support the language services were receiving from VOA’s Broadcast Operations
Office and IBB’s Computing Services Office. At the time of the survey, both
offices were providing technical support to IDAPS users because the issue of
technical support responsibility, noted earlier, had not been resolved. Notwith-
standing the uncertainty surrounding this issue, survey respondents rated the
services of both offices very favorably. Specifically, results show that about 96


OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   19 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




       percent of respondents considered Broadcast Operations support to be “adequate”
       or “very adequate.” Similarly, Computing Services received an overall rating of
       about 92 percent for these same two rating categories.

            In sum, survey respondents in large part gave the new Dalet technology high
       marks. Overall, almost all rated the platform and on-air training in the “adequate”
       to “very adequate” range. Except for the 12 services that had not received the on-
       air training, all reported their services were using the Dalet technology at some
       level in their daily work activities. Furthermore, not only were the VOA language
       services using it routinely, over 80 percent of respondents reported that use of the
       new Dalet system had improved the speed and quality of program production.



       REMAINING WORK UNDER DIGITAL UPGRADE PROGRAM
           With most of the individual projects now completed, the formal IBB digitaliza-
       tion program is nearing an end. Major initiatives remaining include the completion
       of Task 7 under the IDAPS contract and continuing work on the digitalization of
       VOA Television. IBB projects the end of the contract before the close of FY
       2005. Under the television initiative, which is now proceeding on its own separate
       track, IBB awarded a contract for a video file server as part of a new digital video
       news management system. IBB expects the contract to be completed in August
       2005.

       Integrated Digital Audio Production System
       Completion

           Finishing the work of Task 7 under IDAPS largely would signal the end of the
       transformation of VOA’s audio broadcasting infrastructure from analog to digital.
       Although it has taken longer than originally planned, IBB expects to complete this
       task in August 2005. Specifically, the task is designed to replace VOA’s automated
       recording systems and integrate IDAPS, the new VOA traffic scheduling system,
       and VOA’s Master Control facility.

           From its inception, Task 7 went through a number of starts and stops. Deter-
       mining the requirements of Task 7 took up much of 2002. In November of that
       year, the contract was awarded to Dalet as a formal modification to the original
       IDAPS contract at a cost of about $984,000. By April 2003, project documents
       show that it was halted because several critical elements had been overlooked in
       developing the design requirements. In May 2003, it was projected that Task 7


20 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED




would end about February 2004. Over the next several months, additional require-
ments were finalized and funding trade-offs were explored. In late August 2003,
IBB awarded initial change orders to address the required system enhancements at
a cost of about $100,000. However, additional Task 7 changes were put on hold
until VOA could review them in the context of other competing funding priorities,
such as equipment replacement for the its core studios. Subsequent to the August
changes, information from the IBB Contracts Office shows that the contract was
formally modified six times at an added cost of about $241,000. As of the end of
FY 2004, total Task 7 costs were $1.5 million.

    As of October 2004, the Office of Contracts reported that work was proceed-
ing on Task 7, and the first segments of Automation, Playback, and Record ser-
vices had been installed into the VOA Central Recording area. In June 2005, the
Office of Contracts reported that according to the project manager unexpected
software interface problems were holding up the completion of Task 7 but these
problems were expected to be resolved and IBB would accept the finished task in
August 2005. The Contracts Office told OIG that closeout of the contract would
follow after Task 7 but would be before the end of FY 2005. As of June 2005,
expenditures on this contract had reached about $14.2 million.

Television

    Since the start of the digital upgrade program in 1994, about $10 million has
been expended for digital video broadcast infrastructure and production equipment.
For a period of about four years beginning in 2000, BBG television was undergoing
major change with the merger of WORLDNET and VOA. During this period, in
late FY 2000, IBB project information shows that the final television project was
identified: the procurement of a prototype video file server to replace video tape
systems. After a funding shortfall in FY 2001, the project was ready for award at
the end of FY 2002. However, television officials stopped the process because of
concerns that the formal system requirements were not adequate. After the devel-
opment of new specifications, a RFP was issued in July 2004.

    In October 2004, information provided to OIG by IBB’s Office of Engineering
indicated that the project had been expanded from the original prototype video file
server to a new Digital Video News Management System because of the sharp rise
in television production demand. The new baseline system, similar in function to
IDAPS, would allow VOA to manage, process, and broadcast high-quality televi-
sion programs worldwide. The system also would be scalable to allow for the
future expansion of television production. In October 2004, IBB was reviewing



OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   21 .

                                       UNCLASSIFIED
                                    UNCLASSIFIED



       vendor proposals for the new video management system. In July 2005, the Office
       of Engineering informed OIG that the contract for the new digital video system
       had been awarded and that contract completion is estimated to be August 15,
       2005. As of July 2005, the contract value was about $2.2 million and IBB ex-
       pected this to be the final value.




22 .          OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                    UNCLASSIFIED
                                       UNCLASSIFIED





                              ABBREVIATIONS

                    BBG               Broadcasting Board of Governors

                    GFE               Government Furnished Equipment

                     IBB              International Broadcasting Bureau

                 IDAPS                Integrated Digital Audio Production System
                    OIG               Office of Inspector General
                    RFP               Request For Proposal
                  SNAP                System for News and Programming
                   USIA               U.S. Information Agency
                   VOA                Voice of America




OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   23 .

                                       UNCLASSIFIED
                             UNCLASSIFIED





24 .   OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                             UNCLASSIFIED
                                       UNCLASSIFIED





                                    APPENDIX A

          VOA Digital Upgrade Program: Project Information
    Starting under USIA, the transformation of international broadcasting opera-
tions from analog to digital technology formally began with the launch of the
Digital Technology Project in February 1994. Later in the same year, the project
was merged with plans to digitize other parts of the broadcasting bureau. Imple-
mentation of the digital changeover involved a number of projects that followed a
coordinated and integrated approach. Each included a number of key sub-ele-
ments to support the digital transformation.



SNAP/MASTER CONTROL REPLACEMENT
    The earliest projects in the overall digital upgrade program included the SNAP
Replacement and the VOA Master Control Facility; contracting and procurement
on both began in 1996. One of the primary sub-elements of the SNAP project was
installation of the fiber optic Asynchronous Transfer Mode, which facilitated the
“one box” approach by eliminating the need to build two parallel networks to
accommodate IBB’s standard local area network data and the high-speed distribu-
tion of audio information. Another major SNAP sub-element included the prepa-
ration and deployment of about 1700 personal computers and laptop computers.
Replacement of the VOA Master Control Facility was designed to digitize and
expand audio signal intake, routing, and distribution in support of the production
and delivery of VOA radio programs. Sub-elements of this project included
replacement of House Audio Distribution system (Monitron) and implementation
of a new Traffic Scheduling System. IBB project management information shows
that the Master Control facility went into service in January 1999; SNAP Replace-
ment had a July 1999 completion date.



DIGITAL AUDIO PRODUCTION SYSTEM
   Building on the foundation set by the SNAP and Master Control replacements,
IBB moved forward on the final major initiative of the digital broadcasting pro-
gram, a digital audio editing system to replace the existing 1970s-era analog audio-

OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   25 .

                                       UNCLASSIFIED
                                     UNCLASSIFIED




       tape production technology used by the VOA broadcasters. The analog system was
       a slow, labor-intensive process requiring the physical transporting and editing (i.e.,
       razor blade tape editing) of spooled magnetic tape. At a time when analog equip-
       ment was becoming obsolete and the industry was migrating to digital technology,
       digital audio production was expected to be faster, cheaper, and to offer substantial
       benefits to audio quality with no essential loss of signal degradation during produc-
       tion. However, a significant challenge facing IBB planners was the scalability of
       the project. At the time, most off-the-shelf digital production systems being used
       commercially and by international broadcasters were designed for far fewer users.
       IBB information shows that the German broadcaster, Deutsche Welle, had the
       largest audio production system at the time, supporting about 100 broadcaster
       workstations. IBB plans, however, identified a need for a system that possibly
       could support about 400-600 workstations. Because of the unique nature of the
       project, IBB adopted a flexible procurement strategy for the digital audio produc-
       tion system. In September 1999, following federal procurement regulations for full
       and open competition, IBB awarded a $3.2 million firm-fixed price contract to
       Dalet Digital Media Systems.



       RADIO STUDIO EQUIPMENT
           From the outset of the Digital Technology Project, there was an expectation
       that the VOA studios would need to be upgraded coincident with the digitization
       of the audio equipment within the broadcasting bureau. At the time, many of the
       existing audio studio systems (VOA core studios, Language Area Production
       studios, and Mix/Dub Studios) relied on analog technology that was becoming
       obsolete or inadequate. IBB project management information, as of October 2004,
       shows that under the digital effort 24 Mix/Dub studios5 were installed. Also, for
       the core and production studios, project data indicate that most of the basic analog
       components were replaced with digital components as part of the IDAPS project.
       Furthermore, digital consoles for the production studios had been purchased and
       were being installed by VOA technicians. VOA has requested FY 2006 funds to
       undertake a comprehensive studio renovation effort.




       5
        Small studio-type centers located throughout the BBG building providing the VOA broadcasters
       with the production assets to prepare their programs.



26 .           OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                     UNCLASSIFIED
                                       UNCLASSIFIED



DIGITAL TECHNOLOGY FOR TELEVISION
    The Digital Technology Project initiated in 1994 included the planned digitali-
zation of WORLDNET.6 At the time, WORLDNET was located outside the main
BBG headquarters. Digital plans called for refurbishing and upgrading television
studios and the network switching center and the migration of audio and video
production facilities to digital technology. In FY 1996, initial funds of $1.6 million
were used to procure digital audio and video equipment for WORLDNET. In
February 1997, with the move of WORLNET operations into BBG headquarters,
the digital upgrade plans for television were reassessed and new requirements for
television were developed, as appropriate. Funding was restarted again in Septem-
ber and October 1998 for such things as small digital newsgathering equipment,
conversion of digital video-tape facilities, additional video editing equipment, and
expansion of the digital television infrastructure. However, more changes for
WORLDNET were to follow. In early 2000, BBG notified Congress of its plan to
merge VOA and WORLDNET, which took place in May 2004. As of October
2004, IBB project management data show that expenditures for digital television
equipment totaled about $9.3 million.




6
 WORLDNET went out of existence following its merger with VOA, effective May 16, 2004.
Television capabilities were to be integrated throughout VOA.



OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   27 .

                                       UNCLASSIFIED
                             UNCLASSIFIED





28 .   OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                             UNCLASSIFIED
                                       UNCLASSIFIED





                                    APPENDIX B

                             Listing of VOA Language Services

                                 Polled/Responding to OIG

                                        IDAPS Survey

                                   (As of February 2004)



Africa Division
    Response:	              Central Africa, English to Africa*, French to Africa*, Horn
                            of Africa*
    No Response:	            Hausa, Portuguese to Africa, Swahili

European Division

    Response:	              Albanian*, Croatian*

    No Response:	           Bosnian, Estonian, Greek, Macedonian, Serbian, Bulgarian,
                            Czech, Hungarian, Latvian, Lithuanian, Polish, Romanian,
                            Slovak, Slovenian

East Asia Division

    Response:	              Burmese, Cantonese*, Indonesian*, Khmer, Korean*, Lao,
                            Thai, Tibetan, Vietnamese

    No Response:	           Chinese, Mandarin

Latin America Division

    Response:	              Creole*, Latin Production (Note: 1)

    No Response:	           Spanish




OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005   29 .

                                       UNCLASSIFIED
                                      UNCLASSIFIED



       Near East and North Africa Division

          Response:                Azerbaijani*, Kurdish*, Turkish*

          No Response:             None

       English Programs Division

          Response:                Special English, Special English (Music), Broadcast/English
                                   Production (Note: 1)

          No Response:             None

       South and Central Asia Division

          Response:                Bangla, Dari*, Hindi*, Pashto*

          No Response:             Urdu, Farsi, Usbek (Note: 2)

       Eurasian Division

          Response:                Armenian, Georgian*, Russian

          No Response:             Ukrainian


          * Language Service reported that it had completed Dalet on-air training.


       Notes:

       1/Unit was not classified as a separate service for compiling overall VOA response
       rate to survey. However, unit responses to survey questions were included in
       compilation of responses from all respondents.

       2/The service returned the survey questionnaire but did not answer any of the
       questions; therefore, it was treated as a nonresponse in compiling survey results.




30 .            OIG Report No. ISP-IB-05-65, Review of the Voice of America’s Digital Upgrade Program, August 2005


                                      UNCLASSIFIED
UNCLASSIFIED





UNCLASSIFIED

